Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


    PALMETTO GBA CLAIMED
SUBSTANTIALLY ALLOWABLE COSTS
       ON ITS PART A FINAL
ADMINISTRATIVE COST PROPOSALS
 FOR FISCAL YEARS 2010 AND 2011



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Lori S. Pilcher
                                               Regional Inspector General

                                                       March 2013
                                                      A-04-12-04027
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Palmetto claimed administrative costs that substantially complied with the Federal
 Acquisition Regulation and the Medicare contract. Of the $36,513,901 in costs that we
 reviewed, $12,691 was not allowable.

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program
through contracts with private organizations that process and pay Medicare claims. The
contracts with CMS provide for the reimbursement of allowable administrative costs incurred
in processing Medicare claims. After the close of each fiscal year (FY), contractors submit a
Final Administrative Cost Proposal (cost proposal) reporting Medicare costs. Once CMS
accepts the cost proposal, the contractor and CMS negotiate a final settlement of allowable
administrative costs.

From October 1, 2009, through January 24, 2011, CMS contracted with Palmetto GBA
(Palmetto) to process Part A claims for North Carolina and South Carolina and Regional Home
Health claims for multiple states. CMS requested that we perform an audit of the Part A and
Regional Home Health cost proposals that Palmetto submitted for this period.

The objective of this review was to determine whether the administrative costs that Palmetto
reported on its cost proposals were allowable, allocable, and reasonable in accordance with part
31 of the Federal Acquisition Regulation (FAR) and the Medicare contract.

BACKGROUND

The Medicare contract between CMS and Palmetto set forth principles of reimbursement for
administrative costs. The contract cites part 31 of the FAR (48 CFR chapter 1) as the guiding
regulation for the Medicare contract and provides additional guidelines for specific cost areas.

Palmetto is a single-member, limited liability company owned by BlueCross BlueShield of South
Carolina (BlueCross). BlueCross allocates costs to Palmetto both directly and indirectly.
Palmetto then claims a portion of these costs on its cost proposals.

WHAT WE FOUND

Palmetto claimed administrative costs that substantially complied with the FAR and the
Medicare contract. Of the $36,513,901 in costs that we reviewed, $36,501,210 was allowable,
allocable, and reasonable in accordance with part 31 of the FAR and the Medicare contract.
However, Palmetto claimed $12,691 in its cost proposals that was not allowable, including:

    •   $10,619 of home office indirect costs that exceeded the allocable amount and

    •   $2,072 of unallowable costs.


Palmetto GBA’s Administrative Costs Substantially Complied With Federal Regulations (A-04-12-04027)   i
Palmetto claimed these unallowable costs because BlueCross allocated home office costs to
Palmetto that exceeded the amount allocable to Palmetto and the Medicare contract. In
accordance with our previous audit recommendations (report numbers A-04-11-04013 and
A-04-11-04018), BlueCross implemented a year-end true-up process to correct inherent rounding
differences in its home office cost allocation process and resolve this excessive allocation of
costs for FY 2011, but BlueCross had not yet done so for FY 2010.

BlueCross also allocated to Palmetto costs that were unallowable according to part 31 of the
FAR. Palmetto then claimed these costs on its cost proposals. Palmetto claimed these
unallowable costs because BlueCross did not have sufficient controls in place to identify and
classify unallowable costs.

WHAT WE RECOMMEND

We recommend that Palmetto:

    •   reduce the costs claimed on its cost proposals by $12,691,

    •   continue to have BlueCross perform a year-end true-up process to correct inherent
        rounding differences in its home office costs allocation process, and

    •   work with BlueCross to improve internal controls to identify unallowable costs.


PALMETTO GBA COMMENTS

In comments on our draft report, Palmetto concurred with our recommendations and described
the corrective actions it had taken.




Palmetto GBA’s Administrative Costs Substantially Complied With Federal Regulations (A-04-12-04027)   ii
                                                     TABLE OF CONTENTS

                                                                                                                                           Page

INTRODUCTION....................................................................................................................... 1

           Why We Did This Review .............................................................................................. 1

           Objective .......................................................................................................................... 1

           Background ..................................................................................................................... 1

           How We Conducted This Review .................................................................................. 1

FINDINGS ................................................................................................................................... 2

           BlueCross Over Allocated Indirect Costs ..................................................................... 2

           BlueCross Allocated Unallowable Costs ....................................................................... 3

RECOMMENDATIONS............................................................................................................ 4

PALMETTO GBA COMMENTS ............................................................................................. 4

APPENDIXES

           A: Audit Scope and Methodology................................................................................. 5

           B: Final Administrative Cost Proposals With Recommended Costs for
               Acceptance and Disallowance for Fiscal Years 2010 and 2011........................... 6

           C: Related Office of Inspector General Reports ......................................................... 7

           D: Palmetto GBA Comments ........................................................................................ 9




Palmetto GBA’s Administrative Costs Substantially Complied With Federal Regulations (A-04-12-04027)                                                 iii
                                              INTRODUCTION

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program
through contracts with private organizations that process and pay Medicare claims. The
contracts with CMS provide for the reimbursement of allowable administrative costs incurred
in processing Medicare claims. After the close of each fiscal year (FY), contractors submit a
Final Administrative Cost Proposal (cost proposal) reporting Medicare costs. Once CMS
accepts the cost proposal, the contractor and CMS negotiate a final settlement of allowable
administrative costs.

From October 1, 2009, through January 24, 2011, CMS contracted with Palmetto GBA
(Palmetto) to process Part A claims for North Carolina and South Carolina and Regional
Home Health claims for Alabama, Arkansas, Florida, Georgia, Illinois, Indiana, Kentucky,
Louisiana, Mississippi, New Mexico, North Carolina, Ohio, Oklahoma, South Carolina,
Tennessee, and Texas. CMS requested that we perform an audit of the Part A and Regional
Home Health cost proposals that Palmetto submitted for this period.

OBJECTIVE

The objective of this review was to determine whether the administrative costs that Palmetto
reported on its cost proposals were allowable, allocable, and reasonable in accordance with part
31 of the Federal Acquisition Regulation (FAR) and the Medicare contract.

BACKGROUND

The Medicare contract between CMS and Palmetto set forth principles of reimbursement for
administrative costs. The contract cites part 31 of the FAR (48 CFR chapter 1) as the guiding
regulation for the Medicare contract and provides additional guidelines for specific cost areas.

Palmetto is a single-member, limited liability company owned by BlueCross BlueShield of South
Carolina (BlueCross). BlueCross allocates costs to Palmetto both directly and indirectly through
indirect cost pools. 1 Palmetto then claims a portion of these costs incurred at BlueCross on its
cost proposals.

HOW WE CONDUCTED THIS REVIEW

Our audit covered the period October 1, 2009, through January 24, 2011. 2 For this period,
Palmetto claimed administrative costs to CMS totaling $38,415,231. This total included


1
 Indirect cost pool means a grouping of incurred costs identified with two or more objectives but not identified
specifically with any final cost objective (48 CFR § 9904.401–30(a)(4)).
2
 CMS’s contract with Palmetto did not extend through all of FY 2011 because CMS transitioned from its previous
contracts with intermediaries and carriers to new contracts with Medicare Administrative Contractors.


Palmetto GBA’s Administrative Costs Substantially Complied With Federal Regulations (A-04-12-04027)                1
pension costs of $1,901,330 that we did not review because they will be the subject of a
separate review. We therefore reviewed $36,513,901 in administrative costs.

We limited our internal control review to those controls related to the recording and reporting of
costs on the cost proposals. We accomplished our objective through substantive testing.
Appendix A contains the details of our audit scope and methodology and Appendix B contains
a summary of the administrative costs we reviewed. See Appendix C for a list of related OIG
reports.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                               FINDINGS

Palmetto claimed administrative costs that substantially complied with the FAR and the
Medicare contract. Of the $36,513,901 in costs that we reviewed, $36,501,210 was allowable,
allocable, and reasonable in accordance with part 31 of the FAR and the Medicare contract.
However, Palmetto claimed $12,691 in its cost proposals that was not allowable, including:

    •   $10,619 of home office indirect costs that exceeded the allocable amount and

    •   $2,072 of unallowable costs.

Palmetto claimed these unallowable costs because BlueCross allocated home office costs to
Palmetto that exceeded the amount allocable to Palmetto and the Medicare contract. In
accordance with our previous audit recommendations (report numbers A-04-11-04013 and
A-04-11-04018), BlueCross implemented a year-end true-up process to correct inherent rounding
differences in its home office cost allocation process and resolve this excessive allocation of
costs for FY 2011, but BlueCross had not yet done so for FY 2010.

BlueCross also allocated to Palmetto costs that were unallowable according to part 31 of the
FAR. Palmetto then claimed these costs on its cost proposals. Palmetto claimed these
unallowable costs because BlueCross did not have sufficient controls in place to identify and
classify unallowable costs.

BLUECROSS OVER ALLOCATED INDIRECT COSTS

According to FAR § 31.201-2(d), Palmetto is responsible for “... maintaining records, including
supporting documentation, adequate to demonstrate that costs claimed have been incurred, are
allocable to the contract, and comply with applicable cost principles....” Furthermore,




Palmetto GBA’s Administrative Costs Substantially Complied With Federal Regulations (A-04-12-04027)   2
FAR § 31.203(d) states that “once an appropriate basis for allocating indirect costs has been
accepted, the contractor shall not fragment the base by removing individual elements.” 3

For FY 2010, the total home office indirect costs that BlueCross allocated to Palmetto exceeded
the allocable amount by $98,489. Of the $98,489, Palmetto allocated $10,619 to Palmetto’s
Part A contract and claimed that amount on its cost proposal. However, contrary to FAR
§ 31.201-2(d), Palmetto could not support that these expenses were allocable to the Part A
contract.

Palmetto claimed excessive home office indirect costs because BlueCross allocated indirect costs
to Palmetto in excess of the allocable amount. BlueCross did not adhere to FAR § 31.203(d)
when, at various points in the allocation process, it dropped allocations to certain elements
because it allocated by account, by cost center, rather than in the aggregate. Palmetto officials
explained that BlueCross’ allocation methodology is necessary to preserve transaction-level
information and that some rounding is inherent.

For FY 2011, in accordance with recommendations from our previous audits (report numbers
A-04-11-04013 and A-04-11-04018), BlueCross implemented a year-end true-up process to
correct inherent rounding differences in its home office cost allocation process.

BLUECROSS ALLOCATED UNALLOWABLE COSTS

As mentioned above, according to FAR § 31.201-2(d), Palmetto is responsible for
“... maintaining records, including supporting documentation, adequate to demonstrate that costs
claimed have been incurred, are allocable to the contract, and comply with applicable cost
principles....” Additionally, FAR § 31.205 provides a compilation of costs that are unallowable
and places limits on the amounts of certain other costs that are otherwise allowable.

We identified $85,430 in costs incurred at BlueCross that the FAR identifies as unallowable but
BlueCross recorded to allowable accounts. Of the $85,430, BlueCross allocated $32,435 to
Palmetto. Palmetto then allocated $2,072 to the Part A contract and claimed it on its cost
proposals.

Palmetto claimed these unallowable costs because BlueCross did not have sufficient controls in
place to identify and classify unallowable costs. Examples of such unallowable costs included
payments for alcohol (FAR § 31.205-51), governmental penalties (FAR § 31.205-15(a)), public
relations and advertising (FAR § 31.205-1), corporate restructuring (FAR § 31.205-27), and
taxes on unallowable costs when invoices included both allowable and unallowable costs (FAR §
31.201-2(d)).




3
    In BlueCross’ case, the elements included the lines of business or other cost pools.



Palmetto GBA’s Administrative Costs Substantially Complied With Federal Regulations (A-04-12-04027)   3
                                       RECOMMENDATIONS

We recommend that Palmetto:

    •   reduce the costs claimed on its cost proposals by $12,691,

    •   continue to have BlueCross perform a year-end true-up process to correct inherent
        rounding differences in its home office cost allocation process, and

    •   work with BlueCross to improve internal controls to identify unallowable costs.

PALMETTO GBA COMMENTS

In comments on our draft report, Palmetto concurred with our recommendations and described
the corrective actions it had taken. Palmetto’s comments are included in their entirety as
Appendix D.




Palmetto GBA’s Administrative Costs Substantially Complied With Federal Regulations (A-04-12-04027)   4
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered the period October 1, 2009, through January 24, 2011. For this period,
Palmetto claimed administrative costs to CMS totaling $38,415,231. This total included
pension costs of $1,901,330 that we did not review because they will be the subject of a
separate review. We therefore reviewed $36,513,901 in administrative costs. We limited our
internal control review to those controls related to the recording and reporting of costs on the
cost proposals. We accomplished our objective through substantive testing.

We conducted fieldwork at Palmetto and BlueCross offices in Columbia, South Carolina.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Medicare laws, regulations, and guidelines, including the
        FAR § 31.201-2(d), the Medicare Financial Management Manual, chapter 2, section
        190.3, and Palmetto’s contract with CMS;

    •   interviewed officials at Palmetto and BlueCross about their cost accumulation processes
        for cost proposals and gained an understanding of their cost allocation systems;

    •   reviewed external audit reports, including independent auditor’s reports, reports related to
        Palmetto’s internal controls, and prior Office of Inspector General reports;

    •   reconciled the cost proposals for FYs 2010 and 2011 to Palmetto’s accounting records;

    •   tested costs for reasonableness, allowability, and allocability by judgmentally selecting
        journal entries, invoices, expense reports, payroll journals, and personnel records;

    •   recalculated the home office cost allocations of indirect cost pools using the allocation
        statistical bases provided by BlueCross and determined the excess allocated to Palmetto
        and, more specifically, the portion that Palmetto allocated to the Part A contract; and

    •   verified whether BlueCross had implemented a true-up process to correct the inherent
        rounding errors in its home office cost allocation process.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Palmetto GBA’s Administrative Costs Substantially Complied With Federal Regulations (A-04-12-04027)    5
                                  APPENDIX B:
                   FINAL ADMINISTRATIVE COST PROPOSALS WITH
                    RECOMMENDED COSTS FOR ACCEPTANCE AND
                   DISALLOWANCE FOR FISCAL YEARS 2010 AND 2011


                                             Fiscal Year           Fiscal Year
            Cost Category                       2010                  2011                    Total

Salaries and Wages                               $8,035,276             $2,010,949            $10,046,225
Fringe Benefits                                   2,913,834                727,092               3,640,926
Facilities or Occupancy                                   0                      0                       0
EDP Equipment                                         4,369                  1,006                   5,375
Subcontracts                                      2,130,191                526,268               2,656,459
Outside Professional Services                       206,269                117,300                 323,569
Telephone and Telegraph                              39,061                  4,235                  43,296
Postage and Express                               2,446,819                555,959               3,002,778
Furniture and Equipment                                   0                      0                       0
Materials and Supplies                              110,109                 34,119                 144,228
Travel                                              343,093                 78,308                 421,401
Return on Investment                                292,241                 42,567                 334,808
Miscellaneous                                    19,688,352              4,857,489              24,545,841
Other                                                     0                      0                       0
Credits                                         (3,963,213)            (2,786,462)             (6,749,675)
Forward Funding                                           0                      0                       0

             Total Costs Claimed               $32,246,401             $6,168,830             $38,415,231
Less Pension Costs Not Reviewed                  1,476,290                425,040               1,901,330
            Total Costs Reviewed               $30,770,111             $5,743,790             $36,513,901

               Less: Recommended
                      Disallowances
        Over-allocated Indirect Costs               $10,619                      $0                   $10,619
                  Unallowable Costs                   1,923                     149                     2,072
               Total Recommended
                      Disallowances                 $12,542                   $149                    $12,691

    Recommended for Acceptance                 $30,757,569             $5,743,641             $36,501,210




Palmetto GBA’s Administrative Costs Substantially Complied With Federal Regulations (A-04-12-04027)             6
       APPENDIX C: RELATED OFFICE OF INSPECTOR GENERAL REPORTS
            AUDITS OF FINAL ADMINISTRATIVE COST PROPOSALS


                         Report Title                              Report Number           Date Issued

Audit of Palmetto GBA’s Railroad Retirement Board Final             A-04-11-04018             06/29/12
Administrative Cost Proposals for Fiscal Years 2007 and 2008

Audit of Palmetto GBA’s Medicare Part B Final Administrative        A-04-11-04013             02/23/12
Cost Proposals for Fiscal Years 2007 Through 2009

Audit of Medicare Part A Administrative Costs for Period October    A-05-10-00074             10/27/11
1, 2006, Through September 30, 2007, at National Government
Services – Medicare Contractor Number 00450

Review of Blue Cross and Blue Shield of Georgia, Inc.’s Medicare    A-04-10-00068             08/16/11
Final Administrative Cost Proposals for the Period October 1,
2006, Through May 4, 2009

Audit of HealthNow New York, Inc.’s Medicare Part B Final           A-02-09-01039             05/25/11
Administrative Cost Proposal for Fiscal Year 2008
Review of CIGNA Government Services Durable Medical                 A-04-07-00032             03/16/11
Equipment Regional Carrier Final Administrative Cost Proposals
for Fiscal Years 2004 Through 2006
Review of CIGNA Government Services Part B Final                    A-04-07-00031             03/16/11
Administrative Cost Proposals for Fiscal Years 2004 Through
2006

Audit of Cooperativa de Seguros de Vida de Puerto Rico’s Final      A-02-10-01019             02/16/11
Administrative Cost Proposal for Fiscal Year 2009

Audit of Cooperativa de Seguros de Vida de Puerto Rico’s Final      A-02-09-01031             12/28/10
Administrative Cost Proposal for Fiscal Year 2008

Review of Blue Cross Blue Shield Association’s Final                A-05-09-00097             06/15/10
Administrative Cost Proposal for Fiscal Year 2008
Audit of Palmetto Government Benefits Administrators’ Durable       A-04-08-04025             11/04/09
Medical Equipment Regional Carrier Final Administrative Cost
Proposals for Fiscal Year 2007

Review of Wheatlands Administrative Services, Inc.’s Final          A-07-08-04137             10/21/09
Administrative Cost Proposals for Fiscal Years 2005 Through
2008

Audit of Pinnacle Business Solutions, Inc.’s, Medicare Part A       A-06-08-00015             04/08/09
Final Administrative Cost Proposals for Fiscal Years 2005
Through 2007

Audit of Pinnacle Business Solutions, Inc.’s, Medicare Part B       A-06-08-00016             04/02/09
Final Administrative Cost Proposals for Fiscal Years 2005
through 2007


Palmetto GBA’s Administrative Costs Substantially Complied With Federal Regulations (A-04-12-04027)      7
                        Report Title                               Report Number           Date Issued
Audit of HealthNow New York, Inc.’s, Medicare Part B Final          A-02-08-01003             03/27/09
Administrative Cost Proposals for Fiscal Years 2005 Through
2007
Review of CareFirst Blue Cross/Blue Shield of Maryland              A-03-06-00002             02/10/09
Medicare Part A Final Administrative Cost Proposals for Fiscal
Years 2003 - 2005

Audit of Palmetto Government Benefits Administrators’ Medicare      A-04-08-04023             10/09/08
Part B Final Administrative Cost Proposals for Fiscal Years 2004
Through 2006

Audit of Palmetto Government Benefits Administrators’ Durable       A-04-07-04018             10/08/08
Medical Equipment Regional Carrier Final Administrative Cost
Proposals for Fiscal Years 2004 Through 2006

Audit of Palmetto Government Benefits Administrators’ Medicare      A-04-07-04017             10/07/08
Part A Final Administrative Cost Proposals for Fiscal Years 2004
Through 2006

Audit of Palmetto Government Benefits Administrators’ Railroad      A-04-07-04019             08/20/08
Retirement Board Final Administrative Cost Proposals for Fiscal
Years 2002 Through 2006




Palmetto GBA’s Administrative Costs Substantially Complied With Federal Regulations (A-04-12-04027)      8
                        APPENDIX D: PALMETTO GBA COMMENTS




Palmetto GBA’s Administrative Costs Substantially Complied With Federal Regulations (A-04-12-04027)   9
Palmetto GBA’s Administrative Costs Substantially Complied With Federal Regulations (A-04-12-04027)   10
Palmetto GBA’s Administrative Costs Substantially Complied With Federal Regulations (A-04-12-04027)   11
